 QUALITY CONTROL REVIEW OF COOPERS & LYBRAND L.L.P
          RENSSELAER POLYTECHNIC INSTITUTE
            FISCAL YEAR ENDED JUNE 30, 1996



Report Number PO 98-6-005                February 10, 1998



             Office of the Inspector General
                 Department of Defense
Additional Copies

To obtain additional copies of this report, contact the Secondary Reports Distribution
Unit of the Analysis, Planning, and Technical Support Directorate at (703) 6048937
(DSN 664-8937) or FAX (703) 6048932.

Suggestions for Future Audits or Evaluations

To suggest ideas for or to request future audits or evaluations, contact the Planning and
Coordination Branch of the Analysis, Planning, and Technical Support Directorate
at (703) 6048908 (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests
can also be mailed to:

                      OAIG-AUD (ATTN: APTS Audit Suggestions)
                      Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-2884

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling
(800) 424-9098; by sending an electronic message to Hotline@DODIG.OSD.MIL;
or by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
The identity of each writer and caller is fully protected.




Acronyms

GAS            Government Auditing Standards
OMB            Office of Management and Budget
                                                                              February 10, 1998



Board of Trustees
Rensselaer Polytechnic Institute
Troy, New York 12180-3590

Chairman, Non-Profit Industry Group
Coopers & Lybrand L.L.P.
1301 Avenue of the Americas
New York, NY 10019-6013

SUBJECT: Quality Control Review of Coopers & Lybrand L.L.P.
         Rensselaer Polytechnic Institute
         Fiscal Year Ended June 30, 1996
         Report No. PO98-6-005



Introduction
       We are providing this report for your information. The Albany, New York, office of
       Cooper and Lybrand performed the single audit for Rensselaer Polytechnic Institute
       (Institute), Troy, New York, for the fiscal year ended June 30, 1996. The audit was
       required by the Office of Management and Budget (OMB) Circular A-133, “Audits of
       Institutions of Higher Education and Other Nonprofit Institutions.” The Institute
       reported total Federal expenditures of $33,177,823 for the fiscal year ended June 30,
       1996, representing $8,248,332 for the Department of Defense and $24,929,491 for
       other Federal agencies.

       Coopers & Lybrand L.L.P. issued its audit report on September 6, 1996 and
       November 7, 1996. The auditors reported seven findings in the research and student
       financial aid programs, but questioned no costs. The auditors issued an unqualified
       opinion on the financial statements, Schedule of Federal Awards, and compliance with
       specific requirements applicable to major programs. The auditors issued positive and
       negative assurance on compliance with general requirements. Positive assurance means
       that, with respect to the items tested, the results of the auditors’ procedures disclosed
       no material instances of noncompliance. Negative assurance means that, with respect
       to the items not tested, nothing came to the auditors’ attention that caused them to
       believe that the Institute has not complied in all material respects. The auditors also
       obtained an understanding of the internal controls related to the financial statements and
     Federal awards. The audit report describes the auditors’ scope of work in obtaining
     that understanding and in assessing control risk. The report on Federal awards further
     describes the significant internal controls or control structure including the controls that
     provide reasonable assurance that Federal awards are being managed in compliance
     with applicable laws and regulations.



Quality Control Review Results

     The working papers supporting the OMB Circular A-133 audit met the applicable
     guidance and regulatory requirements in the Circular, its related Compliance
     Supplement, Government Auditing Standards, generally accepted auditing standards,
     and the provisions of the Federal award agreements.



Quality Control Review Objective

     The objective of a quality control review is to assure that the audit was conducted in
     accordance with applicable standards and meets the auditing requirements of the OMB
     Circular A-133. As a Federal funding agency for the Institute, we conducted a quality
     control review of the audit working papers. We focused our review on the following
     qualitative aspects of the audit: due professional care, planning, supervision,
     independence, quality control, internal controls, substantive testing, general and
     specific compliance testing, and the Schedule of Federal Awards.

     We reviewed the report on the most recent peer review dated September 23, 1994,
     performed by Ernst and Young LLP, which found that Coopers & Lybrand L.L.P. met
     the objectives of the quality control review standards established by the American
     Institute of Certified Public Accountants and that the standards were being complied
     with during the fiscal year ended March 31, 1994.



Scope and Methodology

     We used the 1991 edition of the Uniform Quality Control Guide for Single Audits (the
     Guide), that was approved by the President’s Council on Integrity and Efficiency as
     guidance for performing the quality control review procedures. The Guide is organized
     by the general and field work audit standards and the required elements of a single
     audit. It is further divided into the substantive work performed during the audit of the
     financial statements and the specific program compliance testing for major programs.
     In addition, we supplemented the Guide to include additional review of transaction
     testing.
     We conducted our review September 22 through 24, and December 11 and 12, 1997.
     We limited the scope of our quality control review to the audit working papers covering
     areas related to the Institute’s financial statements and to its research and development
     programs.



Results of Prior Quality Control Reviews

     We identified minor quality control review findings and recommendations at three of
     the four Coopers 8z Lybrand L.L.P. locations we visited at various times between
     July 1, 1996, and June 30, 1997. The affected offices were notified, and no significant
     further action is necessary.



Background

     The Inspector General Act of 1978, Public Law 95-452, as amended, prescribes the
     duties and responsibilities of that office. In implementing those responsibilities, the
     Inspector General is required to “take appropriate steps to assure that any work
     performed by non-Federal auditors complies with the standards established by the
     Comptroller General. ”

     The Single Audit Act of 1984 (Public Law 98-502) was intended to improve the
     financial management of state and local governments whose total annual expenditures
     are $100,000 or more with respect to Federal financial assistance programs; establish
     uniform requirements for audits of Federal financial assistance; promote efficient and
     effective use of audit resources; and ensure that Federal departments and agencies rely
     on and use the audit work done under the Act, to the maximum extent practicable.


     The Single Audit Act Amendments of 1996, based on 12 years of experience under the
     1984 Act, are intended to strengthen the usefulness of single audits by increasing the
     audit threshold from $100,000 to $300,000 with respect to Federal financial assistance
     programs before an audit is required under the Act; by selecting programs to be audited
     on the basis of risk assessment rather than the amount of funds involved; and by
     improving the contents and timeliness of single audits. The Amendments also bring
     nonprofit organizations, previously covered by similar requirements under the OMB
     Circular A-133, under the Single Audit Act.

      OMB Circular A-133 establishes the Federal audit and reporting requirements for
      nonprofit and educational institutions whose Federal awards are or exceed $100,000.
      The Circular provides that an audit made in accordance with the Circular shall be in
      lieu of any financial audit required under individual Federal awards. An agency must
      rely on the audit to the extent that it provides the information and assurances that an
      agency needs to carry out its overall responsibilities. The coordinated audit approach
      provides for the independent public accountant, Federal auditor, and other non-Federal
      auditors to consider each other’s work in determining the nature, timing, and extent of
      their respective audit procedures. The Circular also requires that the cognizant agency
      obtain or conduct quality control reviews of selected audits made by non-Federal
      auditors and provide the results, when appropriate, to other interested organizations.
      The revised Circular was issued June 30, 1997, to incorporate the changes in the Single
      Audit Act Amendments of 1996. Its provisions apply to audits of fiscal years
      beginning after June 30, 1996.



Discussion of Results
      During our quality control review, we reviewed and took no exception to the working
      papers supporting the following reports and schedules.

      Report of Independent Accountants.       The auditor is required to obtain reasonable
      assurance about whether the financial statements are free of material misstatement. We
      reviewed the audit program and the testing of evidential matter to determine whether
      testing was sufficient based on assessment of control risk to warrant the conclusion
      reached and whether the working papers supported the conclusion.

      Report of Independent Accountants on Schedule of Federal Awards. The auditor is
      required to subject the schedule to the auditing procedures applicable to the audit of the
      financial statements and to ensure that the amounts are fairly stated in relation to the
      basic financial statements. Our review was included in the steps of evaluation of the
      audit working papers related to the “Report of Independent Accountants.”

      Schedule of Federal Awards. The recipient is responsible for creating the Schedule of
      Federal Awards. The auditor is required to audit the information in the Schedule and to
      ensure that it identifies major programs, as defined by OMB Circular A-133, and total
      expenditures for each program. We reviewed the audit program for the appropriate
      procedures, reviewed a selected number of footings/cross-footings, and traced some of
      the amounts to the Subsidiary Ledger and/or Trial Balance.

      Report of Independent Accountants on the Internal Control Structure Based on an
      Audit of Financial Statements Performed in Accordance with Government
      Auditing Standards. The auditor is required to obtain an understanding of the internal
      control structure that is sufficient to plan the audit and to assess control risk for the
      assertions embodied in the financial statements. We reviewed the audit program for the
      appropriate procedures, the working paper documentation, and the substantive testing
      performed.
Report of Independent Accountants on Compliance with Laws, Regulations,
Contracts and Grants Based on an Audit of Financial Statements Performed in
Accordance with Government Auditing Standards. The auditor is required to
determine whether the recipient has complied with laws and regulations that may have a
direct and material effect on the determination of financial statement amounts. We
reviewed the audit program for the appropriate procedures, the working paper
documentation, its support, and the compliance tests performed.

Report of Independent Accountants on the Internal Control Structure Used in
Administering Federal Awards. The auditor is required to obtain an understanding of
the internal control structure and to assess control risk to determine whether the auditor
intends to place reliance on the internal control structure. The auditor must perform
tests of controls to evaluate the effectiveness of the design and operation of the policies
and procedures in preventing and detecting material noncompliance, review the system
for monitoring subrecipients and obtaining and acting on subrecipient audit reports, and
determine whether controls are effective to ensure that direct and indirect costs are
computed and billed in accordance with requirements in the compliance supplement.
We reviewed the Coopers & Lybrand L.L.P. audit programs for the appropriate
procedures, the working paper documentation, and the test of controls performed and
reevaluated selected internal control items.

Report of Independent Accountants on Compliance with General Requirements.
The auditor is required to determine whether the recipient has complied with laws and
regulations that may have a direct and material effect on any of its major Federal
programs. General requirements are national policies that could have a material effect
on the recipient’s financial statements including those prepared for Federal programs.
These requirements are political activity, the Davis-Bacon Act, civil rights, cash
management, Federal financial reports, allowable costs/cost principles, the Drug-Free
Workplace Act, and administrative requirements. The auditors’ procedures were
limited to those prescribed in the OMB Compliance Supplement for “Audits of
Institutions of Higher Learning and Other Non-Profit Institutions.” We reviewed the
audit program for the appropriate procedures, compared the audit program steps to
those in the Compliance Supplement to make sure that all areas were audited, reviewed
the working paper documentation and its support, reviewed the compliance tests
performed, and reevaluated selected compliance items.

Report of Independent Accountants on Compliance with Specific Requirements
Applicable to Major Programs. The auditor is required to determine whether the
recipient has complied with laws and regulations that may have a direct and material
effect on any of its major Federal programs. The specific requirements applicable to
research and development programs include types of services allowed or unallowed;
eligibility; matching, level of effort, and/or earmarking requirements; special reporting
requirements; and special tests and provisions. We reviewed the audit program for the
appropriate procedures, checked the audit program steps to those in the Compliance
      Supplement to make sure that all areas were audited, reviewed the working paper
      documentation and its support, reviewed the compliance tests performed, and
      reevaluated selected compliance items.

      Schedule of Findings and Questioned Costs. The auditor is required to report all
      instances of material noncompliance in the audit report. We reconciled the findings in
      the working papers to the audit report to make sure that the report includes all findings
      identified in the working papers and that the findings are properly supported. A
      complete listing of all the immaterial instances of noncompliance are in Enclosure 1 of
      this report.



Comments

      Because this report contains no findings or recommendations, written comments are not
      required. We appreciate the courtesies extended during the review. If you have
      questions on this report, please contact Mrs. Barbara Smolenyak, Program Director, at
      (703) 604-8761. See Enclosure 2 for the report distribution.




                                    Robert !. Lieberman
                                 Assistant Inspector General
                                        for Auditing




Enclosures
                             Rensselaer Polytechnic Institute
                             Fiscal Year Ended June 30, 1996


                                  Schedule Of Findings


 Page(s)   Program            Description                       Resolution Agency

General Requirements:
   12     Research            Service Centers’                     DOD-ONR’
   12     Research            Property Management                  DOD-ONR’
   13     Research            Subrecipients                        DOD-ONR’

Specific Requirements:
  17-19    Perkins Loan       Service Organization              Dept.   of   Education
   19      Student Aid        Disbursements (paid balances)     Dept.   of   Education
   20      Student Aid        Disbursements (authorizations)    Dept.   of   Education
   20      Student Aid        Perkins Collection Management     Dept.   of   Education


‘Repeat finding.
20ffice of Naval Research.




                                                                             Enclosure 1
                               Rensselaer Polytechnic Institute
                               Fiscal Year Ended June 30, 1996


                                         Distribution List


Board of Trustees                                     Ms. Robyn Steve, Director
Rensselaer Polytechnic Institute                      Research Accounting and Costing Standards
Troy, NY 12180-3590                                   Rensselaer Polytechnic Institute
                                                      Troy, NY 12180-3590

Ms. Denise Marbach, Partner                           Chairman, Non-Profit Industry Group
Coopers & Lybrand L.L.P.                              Coopers & Lybrand L.L.P.
State Street Centre at 80 State Street                1301 Avenue of the Americas
Albany, NY 12207-2591                                 New York, NY 10019-6013

Director, Defense Research and Engineering            Director, Defense Procurement
Office of the Under Secretary of Defense for          Office of the Under Secretary of Defense for
Acquisition & Technology                              Acquisition & Technology
3030 Defense Pentagon                                 3060 Defense Pentagon
Washington, DC 20301-3030                             Washington, DC 20301-3060

Resident Representative                               Department of the Navy
Office of Naval Research                              Comptroller of the Navy (NCB-53)
495 Summer Street, Room 103                           Pentagon, Room 2B340
Boston, MA 02210-2109                                 Washington, DC 20350- 1100

Department of the Air Force                           Department of the Army
Accounting and Banking Directorate                    Deputy Assistant Secretary of
Office of the Assistant Secretary                      the Army for Financial Operations
Attn: Mr. Steve Roebuck SAF/FMPB                      Attn: Audit Liaison (SAFM-FOI)
1130 Air Force Pentagon, Room 4C239                   101 Army Pentagon, Room 3E575
Washington, DC 20330-l 130                            Washington, DC 20310-6178

Defense Advanced Research Projects Agency             Department of Agriculture
Director, Contracts Management Office                 Regional Inspector General, NER Audit
Attn: Mr. R. Timothy Arnold                           Attn.: Suite 5D06
3701 N. Fairfax Drive                                 4700 River Road, Unit 151
Arlington, VA 22203-1714                              Riverdale, MD 20737-1237



                                                                                    Enclosure 2
                                                                                    Page 1 of 3
                             Rensselaer Polytechnic Institute
                             Fiscal Year Ended June 30, 1996


                                       Distribution List


Department of Commerce                                     Department of Transportation
Office of the Inspector General                            Regional Manager
Atlanta Regional Office of Audits                          26th Federal Plaza, Suite 3194
401 W. Peachtree Street, NW, Suite 2342                    New York, NY 10278-0194
Atlanta, GA 30308

Department of Education                                    Department of Interior
Regional Inspector General for Audit                       Director of External Audits
Office of the Inspector General                            Office of the Inspector General
3535 Market Street, Room 16280                             1849 C Street, NW, Mail Stop 5341-MIB
Philadelphia, PA 19104                                     Washington, DC 20240

Department of Energy                                       Department of Veterans Affairs
Director, Financial Audit Division                         Director, Contract Review and Evaluations
Office of the Inspector General                             Division (53C)
1000 Independence Avenue SW                                810 Vermont Avenue, NW
Washington, DC 20585                                       Washington, DC 20420

Department of Health and Human Services                    National Science Foundation
National Audit Managers-Non-Federal Audits                 Office of the Inspector General
Office of the Inspector General                            Assistant Inspector General for External
National External Audit Resources                           Audit
Lucas Place                                                4201 Wilson Blvd., Room 1135
323 West 8th Street, Room 514                              Arlington, VA 22230
Kansas City, MO 64105

U. S . Environmental Protection Agency                     National Endowment for the Arts
Divisional Inspector General for Audit (3AlOO)             Office of the Inspector General
841 Chestnut Street                                        1100 Pennsylvania Avenue, NW, Room 207
Philadelphia, PA 19106                                     Washington, DC 20506




                                                                                     Enclosure 2
                                                                                     Page 2 of 3
                            Rensselaer Polytechnic Institute
                            Fiscal Year Ended June 30, 1996


                                     Distribution List


National Aeronautics and Space Administration            Nuclear Regulatory Commission
Assistant Inspector General for Auditing                 Office of the Inspector General
Office of the Inspector General, Code W                  Washington, DC 20555
Washington, DC 20546

National Endowment for the Humanities                    U.S. Information Agency
Office of the Inspector General                          Office of the Inspector General
1100 Pennsylvania Avenue, NW, Rm 801                     400 Sixth Street, SW, Room 100
Washington, DC 20506                                     Washington, DC 20547




                                                                                  Enclosure 2
                                                                                  Page 3 of 3
Evaluation Team Members


This report was prepared by the Financial and Performance Audits Directorate,
Office of the Deputy Assistant Inspector General for Audit Policy and Oversight,
DOD.

Barbara E. Smolenyak
Vera J. Garrant
Nancy C. Cipolla
Janet C. Johnson
